No. 19-863
IN THE

Supreme Court of the United States
AGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
CERTIFICATE OF SERVICE
I, David J. Zimmer, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3, 29.4, and 29.5 (as modified by the
Court’s Order of April 15, 2020) that I have, this 6th day of August 2020, served the
Joint Appendix upon respondent William P. Barr, Attorney General, by causing an
electronic copy of the same to be delivered to counsel of record at the e-mail address
listed below:
Jeffrey B. Wall, Acting Solicitor General
SupremeCtBriefs@USDOJ.gov
Pursuant to the Court’s April 15 Order, I certify that all parties have agreed
to accept such electronic service in lieu of service of paper copies. I further certify
that all persons required to be served have been served.

In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

August 6, 2020
David J. Zimmer
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000
Counsel for Petitioner

2

